No.

In the Supreme Court of the United States
TOBIAS O. REED, Petitioner
v.
COMMONWEALTH OF VIRGINIA, Respondent.
On Petition For a Writ of Certiorari to the
Supreme Court of Virginia

Motion for Leave to Proceed In Forma Pauperis
The petitioner, Tobias O. Reed, seeks leave of Court to file the accompanying
Petition for Writ of Certiorari, without prepayment of costs, and to proceed in forma
pauperis. Counsel was appointed to represent him on appeal by the trial court at
his sentencing on 28 May 2015 pursuant to Va. Code ยง19.2-159. Petitioner has been
represented by court appointed counsel ever since in this Court, the Court of
Appeals of Virginia, and the Supreme Court of Virginia. He was permitted to
proceed in forma pauperis in all of his cases in those courts. He remains
incarcerated. Pursuant to Rule 39.1 of the Rules of the Supreme Court, no affidavit
or declaration is attached.
Date: 19 August 2020
Respectfully submitted,
TOBIAS O. REED
/s/ Marvin D. Miller
MARVIN D. MILLER
Counsel of Record for Petitioner
The Law Offices of Marvin D. Miller
1203 Duke Street
Alexandria VA 22314
703 548 5000
ofc@mdmillerlaw.com

